TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Independent Attestation Review of the
                       Internal Revenue Service’s Fiscal
                     Year 2011 Annual Accounting of Drug
                    Control Funds and Related Performance



                                        January 30, 2012

                              Reference Number: 2012-10-018




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


INDEPENDENT ATTESTATION REVIEW                          Performance Summary Report to the Director of
OF THE INTERNAL REVENUE                                 the ONDCP. Further, the Circular requires that
SERVICE’S FISCAL YEAR 2011 ANNUAL                       each report be provided to the agency’s
ACCOUNTING OF DRUG CONTROL                              Inspector General for the purpose of expressing
                                                        a conclusion about the reliability of each
FUNDS AND RELATED PERFORMANCE
                                                        assertion made in the report prior to its
                                                        submission.
Highlights                                              WHAT TIGTA FOUND

Final Report issued on January 30, 2012                 Based on our review, nothing came to our
                                                        attention that caused us to believe that the
Highlights of Reference Number: 2012-10-018             assertions in the Detailed Accounting
to the Internal Revenue Service Chief                   Submission and Performance Summary Report
Financial Officer and Acting Chief, Criminal            are not appropriately presented in all
Investigation.                                          material respects in accordance with
                                                        ONDCP-established criteria. The IRS
IMPACT ON TAXPAYERS                                     reported that it expended $66.5 million on
                                                        ONDCP-related activities and completed
The IRS reported that it expended $66.5 million         927 ONDCP-related investigations in Fiscal
on Office of National Drug Control Policy               Year 2011. The IRS also reported it participated
(ONDCP)-related activities and completed                in 435 ONDCP-related cases that resulted in
927 ONDCP-related investigations in Fiscal              convictions, with an 88.1 percent conviction rate.
Year 2011. Based on our review, nothing came
to our attention that caused us to believe that         WHAT TIGTA RECOMMENDED
the assertions in the Detailed Accounting
Submission and Performance Summary Report               TIGTA made no recommendations as a result of
are not appropriately presented in all                  the work performed during this review.
material respects in accordance with                    However, key IRS officials reviewed this report
ONDCP-established criteria. Complete and                prior to its issuance and agreed with the facts
reliable financial and performance information is       and conclusions presented.
critical to the IRS’s ability to accurately report on
the results of its operations to both internal and
external stakeholders, including taxpayers.
WHY TIGTA DID THE AUDIT
This review was conducted as required by the
ONDCP and the ONDCP Circular: Drug Control
Accounting, dated May 1, 2007. The National
Drug Control Program agencies are required to
submit to the Director of the ONDCP, not later
than February 1 of each year, a detailed
accounting of all funds expended (the ONDCP
Circular requires amounts obligated) during the
previous fiscal year. Agencies also need to
identify and document performance measure(s)
that justify the results associated with these
expenditures.
The Chief Financial Officer, or another
accountable senior level executive, of each
agency for which a Detailed Accounting
Submission is required, shall provide a
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 30, 2012


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER
                ACTING CHIEF, CRIMINAL INVESTIGATION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Independent Attestation Review of the Internal
                             Revenue Service’s Fiscal Year 2011 Annual Accounting of Drug
                             Control Funds and Related Performance (Audit # 201110031)

 This report presents the results of our attestation review of the Internal Revenue Service’s
 Fiscal Year 2011 Office of National Drug Control Policy Detailed Accounting Submission and
 Performance Summary Report (the Report). The overall objective of this review was to express
 a conclusion about the reliability of each assertion made in the Report. This review was included
 in our Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of
 Achieving Program Efficiencies and Cost Savings.
 The Treasury Inspector General for Tax Administration made no recommendations as a result of
 the work performed during this review. However, key Internal Revenue Service officials
 reviewed this report prior to its issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the Internal Revenue Service managers affected
 by the report results. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at 202-622-8500.
                                  Independent Attestation Review of the
                            Internal Revenue Service’s Fiscal Year 2011 Annual
                         Accounting of Drug Control Funds and Related Performance




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Summary of the Independent Attestation Review of the Fiscal Year 2011
          Office of National Drug Control Policy Detailed Accounting
          Submission and Performance Summary Report ........................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 5
          Appendix II – Major Contributors to This Report ........................................ Page 7
          Appendix III – Report Distribution List ....................................................... Page 8
          Appendix IV – Internal Revenue Service’s Fiscal Year 2011 Detailed
          Accounting Submission and Related Performance Summary Report .......... Page 9
                 Independent Attestation Review of the
           Internal Revenue Service’s Fiscal Year 2011 Annual
        Accounting of Drug Control Funds and Related Performance




                     Abbreviations

FY             Fiscal Year
IRS            Internal Revenue Service
ONDCP          Office of National Drug Control Policy
                              Independent Attestation Review of the
                        Internal Revenue Service’s Fiscal Year 2011 Annual
                     Accounting of Drug Control Funds and Related Performance




                                           Background

The Anti-Drug Abuse Act of 19881 establishes as a
policy goal the creation of a drug-free America. A key           National Drug Control Program
provision of the Act is the establishment of the Office of      agencies are required to submit
National Drug Control Policy (ONDCP) to set priorities,           to the Director of the ONDCP,
implement a national strategy, and certify Federal              not later than February 1 of each
                                                                year, a detailed accounting of all
Government drug control budgets. The Internal                      funds expended during the
Revenue Service (IRS) supports the National Drug                       previous fiscal year.
Control Strategy through its continued support of the
Organized Crime Drug Enforcement Task Force. The
mission of IRS Criminal Investigation in Federal law enforcement’s anti-drug efforts is to reduce
or eliminate the financial gains (profits) of major narcotics trafficking and money laundering
organizations through the use of its unique financial investigative expertise and statutory
jurisdiction.
This review was conducted as required by the ONDCP and the ONDCP Circular: Drug Control
Accounting, dated May 1, 2007. The National Drug Control Program agencies2 are required to
submit to the Director of the ONDCP, not later than February 1 of each year, a detailed
accounting of all funds expended (the ONDCP Circular requires amounts obligated) during the
previous fiscal year. Agencies also need to identify and document performance measure(s) that
justify the results associated with these expenditures. The Chief Financial Officer, or another
accountable senior level executive, of each agency for which a Detailed Accounting Submission
is required, shall provide a Performance Summary Report to the Director of the ONDCP.
Further, the Circular requires that each report be provided to the agency’s Inspector General for
the purpose of expressing a conclusion about the reliability of each assertion made in the report
prior to its submission.
This review was performed at the IRS Headquarters offices of the Chief Financial Officer and
Chief, Criminal Investigation, in Washington, D.C., during the period August 2011 through
January 2012. Our review was conducted in accordance with attestation standards established by
the American Institute of Certified Public Accountants. In general, our review procedures were
limited to inquiries and analytical procedures appropriate for an attestation review based upon
the criteria in the ONDCP Circular. Detailed information on our audit objective, scope, and



1
 Pub. L. No. 100-690, 102 Stat. 4181 (1988).
2
 A National Drug Control Program agency is defined as any agency that is responsible for implementing any aspect
of the National Drug Control Strategy.
                                                                                                        Page 1
                           Independent Attestation Review of the
                     Internal Revenue Service’s Fiscal Year 2011 Annual
                  Accounting of Drug Control Funds and Related Performance



methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                         Page 2
                              Independent Attestation Review of the
                        Internal Revenue Service’s Fiscal Year 2011 Annual
                     Accounting of Drug Control Funds and Related Performance




                                    Results of Review

Summary of the Independent Attestation Review of the
Fiscal Year 2011 Office of National Drug Control Policy Detailed
Accounting Submission and Performance Summary Report
We reviewed the assertions in the IRS’s ONDCP Detailed Accounting Submission and
Performance Summary Report (the Report) for Fiscal Year (FY)3 2011, which ended
September 30, 2011 (see Appendix IV). The IRS is responsible for preparing the Report, which
was prepared pursuant to 21 U.S.C. 1704 (d) and the ONDCP Circular: Drug Control
Accounting, dated May 1, 2007. The IRS reported that it expended $66.5 million on
ONDCP-related activities and completed 927 ONDCP-related investigations in FY 2011. For
FY 2011, the IRS also reported it participated in 435 ONDCP-related cases that resulted in
convictions, with an 88.1 percent conviction rate.
Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants. An attestation review is substantially less in scope
than an examination, the objective of which is the expression of an opinion on the ONDCP
Detailed Accounting Submission and Performance Summary Report. Accordingly, we do not
express such an opinion.
The Report assertions, as required by Section 6.b. of the ONDCP Circular, include statements
that the methodology used is reasonable and accurate, including explanations and documentation
of any estimation assumptions used; the methodology disclosed was the actual methodology
used; and the data presented are associated with obligations against a financial plan that reflects
changes, if made. The assertions, as required by Section 7.b. of the ONDCP Circular, also
include statements that the performance reporting system is appropriate and applied,
explanations for not meeting any performance targets are reasonable, and the methodology used
to establish performance targets is reasonable and applied. ONDCP-established criteria require
well-documented sources of data, documented and explained calculations, and complete and fair
presentation of data from financial systems.
Based on our review, nothing came to our attention that caused us to believe that the assertions in
the Report are not appropriately presented in all material respects in accordance with
ONDCP-established criteria.



3
 A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                   Page 3
                           Independent Attestation Review of the
                     Internal Revenue Service’s Fiscal Year 2011 Annual
                  Accounting of Drug Control Funds and Related Performance



While this report is an unrestricted public document, the information it contains is intended
solely for the use of the IRS, the United States Department of the Treasury, the ONDCP, and
Congress. It is not intended to be, and should not be, used by anyone other than these specified
parties.




                                                                                           Page 4
                              Independent Attestation Review of the
                        Internal Revenue Service’s Fiscal Year 2011 Annual
                     Accounting of Drug Control Funds and Related Performance



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to perform an attestation review of the IRS’s reporting
of FY1 2011 ONDCP expenditures and related performance for the purpose of expressing a
conclusion about the reliability of each assertion made in the Detailed Accounting Submission
and Performance Summary Report. To accomplish our objective, we:
I.      Obtained an understanding of the process used to prepare the FY 2011 Detailed
        Accounting Submission and Performance Summary Report.
        A. Discussed the process used to record ONDCP expenditures and performance
           information with responsible IRS personnel.
        B. Obtained documents such as written procedures and supporting worksheets that
           evidence the methodology used.
II.     Evaluated the reasonableness of the drug methodology process for detailed accounting
        submissions.
        A. Reviewed data supporting the Detailed Accounting Submission to establish their
           relationship to the amounts being reported.
        B. Verified whether all drug-related activities are reflected in the drug methodology.
III.    Performed sufficient verifications of reported obligations for detailed accounting
        submissions to support our conclusion on the reliability of the assertions.
        A. Verified that the Detailed Accounting Submission included all of the elements
           specified in Section 6 of the ONDCP Circular: Drug Control Accounting.
        B. Verified the mathematical accuracy of the obligations presented in the Table of
           FY 2011 Drug Control Obligations.
        C. Traced the information contained in the Table of FY 2011 Drug Control Obligations
           to the supporting documentation.
IV.     Evaluated the reasonableness of the methodology used to report performance information
        for National Drug Control Program activities.



1
 A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                   Page 5
                         Independent Attestation Review of the
                   Internal Revenue Service’s Fiscal Year 2011 Annual
                Accounting of Drug Control Funds and Related Performance



     A. Reviewed data supporting the Performance Summary Report to establish their
        relationship to the National Drug Control Program activities.
     B. Verified whether all drug-related activities are reflected in the performance
        information.
V.   Performed sufficient verifications of reported performance information to support our
     conclusion on the reliability of the assertions.
     A. Verified that the Performance Summary Report included all of the elements specified
        in Section 7 of the ONDCP Circular: Drug Control Accounting.
     B. Verified the mathematical accuracy of the performance information presented.
     C. Traced the performance information presented to the supporting documentation.
     D. Reviewed the supporting documentation for reasonableness.




                                                                                        Page 6
                          Independent Attestation Review of the
                    Internal Revenue Service’s Fiscal Year 2011 Annual
                 Accounting of Drug Control Funds and Related Performance



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Angela Garner, Lead Auditor
Yasmin B. Ryan, Senior Auditor
Mildred Rita Woody, Senior Auditor




                                                                                   Page 7
                          Independent Attestation Review of the
                    Internal Revenue Service’s Fiscal Year 2011 Annual
                 Accounting of Drug Control Funds and Related Performance



                                                                Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Criminal Investigation SE:CI
Deputy Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Progam Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO




                                                                       Page 8
              Independent Attestation Review of the
        Internal Revenue Service’s Fiscal Year 2011 Annual
     Accounting of Drug Control Funds and Related Performance



                                                   Appendix IV

Internal Revenue Service’s Fiscal Year 2011
    Detailed Accounting Submission and
   Related Performance Summary Report




                                                          Page 9
         Independent Attestation Review of the
   Internal Revenue Service’s Fiscal Year 2011 Annual
Accounting of Drug Control Funds and Related Performance




                                                    Page 10
         Independent Attestation Review of the
   Internal Revenue Service’s Fiscal Year 2011 Annual
Accounting of Drug Control Funds and Related Performance




                                                    Page 11
         Independent Attestation Review of the
   Internal Revenue Service’s Fiscal Year 2011 Annual
Accounting of Drug Control Funds and Related Performance




                                                    Page 12
         Independent Attestation Review of the
   Internal Revenue Service’s Fiscal Year 2011 Annual
Accounting of Drug Control Funds and Related Performance




                                                    Page 13
         Independent Attestation Review of the
   Internal Revenue Service’s Fiscal Year 2011 Annual
Accounting of Drug Control Funds and Related Performance




                                                    Page 14
         Independent Attestation Review of the
   Internal Revenue Service’s Fiscal Year 2011 Annual
Accounting of Drug Control Funds and Related Performance




                                                    Page 15
         Independent Attestation Review of the
   Internal Revenue Service’s Fiscal Year 2011 Annual
Accounting of Drug Control Funds and Related Performance




                                                    Page 16
